C'OCKLE
2311 Douglas Street CX j E-Mail Address:
Omaha, Nebraska 68102-1214 L ega I B rre fs

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-975

CENTER FOR BIOLOGICAL DIVERSITY, ANIMAL
LEGAL DEFENSE FUND, DEFENDERS OF WILDLIFE,
AND SOUTHWEST ENVIRONMENTAL LAW CENTER,

Petitioners,
v.

U.S. DEPARTMENT OF HOMELAND SECURITY AND
CHAD WOLF, ACTING SECRETARY OF THE U.S.
DEPARTMENT OF HOMELAND SECURITY,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the Sth day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF DR. DENI J. SEYMOUR, RICK AND SANDY
MARTYNEC, GAYLE HARTMANN, DR. PAUL R. AND DR. SUZANNE FISH, AND ARCHAEOLOGY SOUTHWEST
AS AMICI CURIAE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
MATTHEW R. ARNOLD WILLIAM S. EUBANKS II
EUBANKS & ASSOCIATES, LLC Counsel of Record

1509 16th Street, NW
Washington, DC 20036
(843) 718-4513
matt@eubankslegal.com

Counsel for Amici Curiae

EUBANKS & ASSOCIATES, LLC
2601S. Lemay Avenue

Unit 7-240

Fort Collins, CO 80525

(970) 703-6060
bill@eubankslegal.com

Subscribed and sworn to before me this 5th day of March, 2020. .
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Loos? Oudeah, Clle

Affiant 39510

     
   

  

GENERAL MOTARY-State of Nebraska
i RENEE J. GOSS
My Comm. Exp. September 8, 2023

   

Notary Public
SERVICE LIST

Counsel for Petitioners:

Anchun Jean Su

Counsel of Record
Center for Biological Diversity
1411 K Street NW, Suite 300
Washington, DC 20005
jsu@biologicaldiversity.org
202-849-8399

Counsel for Respondents:

Noel J. Francisco

Solicitor General

United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217
